No. 20-276
In the

Supreme Court of the United States
CHRISTOPHER GIBSON,
Petitioner,
v.
S ECURITIES AND E XCHANGE C OMMISSION , ET AL .,
Respondents.
On Petition for a Writ of Certiorari to
the United State Court of Appeals
for the Eleventh Circuit
CERTIFICATE OF SERVICE
Pursuant to Sup. Ct. R. 29.3 and the Court’s April 15, 2020, Order, I certify
that Petitioner and Amicus Curiae Americans for Prosperity consented to receive
service of the MOTION FOR LEAVE AND BRIEF AMICUS CURIAE OF PACIFIC
LEGAL FOUNDATION IN SUPPORT OF PETITIONER electronically and I caused
electronic copies of the brief to be served via email upon the following:

Attorney for Petitioner, Gregory George Garre: Gregory.garre@lw.com
Attorney for Amicus Curiae Americans for Prosperity: ccrawford@afphq.org
I further certify that counsel for Respondents and Amicus Curiae Atlantic
Legal Foundation did not respond to my request for consent to electronic service.
Therefore, I served the MOTION FOR LEAVE AND BRIEF AMICUS CURIAE OF
PACIFIC LEGAL FOUNDATION IN SUPPORT OF PETITIONER upon the
following counsel via FEDERAL EXPRESS addressed to the following:

Counsel for Respondents

Noel J. Francisco, Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
Counsel for Amicus Curiae
Atlantic Legal Foundation
Lawrence S. Ebner
Atlantic Legal Foundation
1701 Pennsylvania Ave NW, Suite 200
Washington, DC 20006
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 9, 2020.

____________________________
OLIVER J. DUNFORD

Counsel of Record

Pacific Legal Foundation
4440 PGA Blvd., Ste. 307
Palm Beach Gardens, FL 33410
Telephone: (561) 691-5000
ODunford@pacificlegal.org

Counsel for Amicus Curiae
Pacific Legal Foundation

2

